Supreme Court, U.S.
FILED

NAR 1 5 2M

THE SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543

OFFICE OF THE CLERK

January 19,2021

<U-' •

_ K ;:-:0 - /I
"" qJ}
ji ^

James Williams,Pro Se
Fed #31734-037
Fdc-Philadelphia
700 Arch St.
Philadelphia,PA 19105
RE:IN RE WILLIAMS

CV Case No.19-3741(3d Cir.)
19-3688(E.D.PA)

EXTRAORDINARY WRIT OF HABEAS CORPUS
PURSUANT TO 28 USC 2241
QUESTIONS PRESENTED:
[l]. Does the District Courts arbitrary denying defendant Sixth
Amendment Constitutional Right to Self-Representation on initial
2255 constitute extraordinary circumstances permitting resort to
28 USC 2241 relief?
[2] What resort is left to defendant when the district court and
Third Circuit leave uncorrected: Structural error committed during
2255 proceedings?
EXTRAORDINARY WRIT OF HABEAS CORPUS AND
REQUEST FOR EMERGENCY RELIEF PURSUANT
TO 28 use 2241
Comes now on this 19th January 2021,movant James Williams, hereby
swear under the penalty of perjury pursuant to 28 USC 1746. That
the foregoing is true. Movant is Pro Se, lacks formal education in

1

law, is unable to afford professional legal representation and ask
the court to liberally construe his unprofessional filing.
EFickson v. Pardus 5"5T~US—8^ 9'4—(_2‘007")~-------------------------------------------EXTRAORDINARY CIRCUMSTANCES WARRANT THIS COURT'S
EXERCISE OF IT' JURISDICTION IN HABEAS CORPUS DIRECTLY.
This court has jurisdiction by Habeas Corpus directly, pursuant to
Rule 20; 28 USC 1651 (a) and 28 USC 2241. In EX Parte Hull,312 us
546,547-48 (1941), discussing denying "Pro Se" habeas petitioner
access to court as forcibly preventing petitioner from pursuing
his appeal was denial of equal protection of the laws. "The state
may not abridge or impair prisoners' efforts to petition a federal
court for vindication of federal rights " id. at 549.
INTRODUCTION
In this unusual case movant was denied the 1st, 5th and 6th
amendment constitutional rights during 2255 proceeding.
March 17, 1999, movant filed a letter to the court raising various
meritorious constitution violations that occurred during trial.
Many of the claims prepared by movant (depicted reprehensible
prosecutor misconduct) to procure a wrongful conviction. The
District Court, prosecution with court appointed counsel acted
collaboratively to prevent these habeas issues inter alia from
being heard or fairly adjudicated on movant initial 2255
proceedings (as was his right). See AEDPA of 1996 (Congress
intended each defendant following conviction one full, fair
unobstructed shot at 2255 apple. In seeking to challenge the
integrity of the conviction on collateral review). [FN.l, in US v.
Berger, 295 US 78, 88 (I935)(held that a prosecutor duty is not
merely to secure conviction but see justice be done)]. In order to
secure/maintain a wrongful conviction, movant was prevented from
appealing / accessing the 2255 remedy by structural error.
First: the District Court denied movant both the (sixth amendment)

9

right to self-representation and the statutory right to
prepare/manage his own cause pursuant to 28 USC 1654. See US v.
Williams . no . 95-407-02 ( E.D'. Pa), Apri r~5"j 2000-hearing transcript
(Exhibit-1)(id.Nt.28/202, the court: I'm not going to permit you
to file your own habeas corpus motion). But see Rodriguez v. US,
395 US 327 (1969), (that appellant's seeking habeas relief under
2255 must be permitted to prepare their own motion Pro Se). More
recently, in McCoy v. Louisiana (2018) this court admonished that
such right must be honored and infringing the right was structural
error. The Third Circuit followed just as adamantly stating that
the right to self-representation is either respected or denied.
Although its denial is not harmless. Cf US v. Peppers, 302 F.3d
120 (3d 2002)
Second: the District Court forced appointment of counsel upon
habeas movant. Despite movant explicit requests to dispense with
appointed counsels involvement in his 2255. See Us v. Williams,
no.95-407-02, April 5, 2000 hearing transcript (Exhibit1)(id.Nt.16-17/190-191, the court: so you don't want Mr. Levant-Defendant: No), see also April 5, 2000 written Court order
(Exhibit-2)(id.4, Defendants motion to immediately withdraw court
appointed counsel from any assistance with Petitioner's Pro Se
2255 is denied. 5, Defendant's motion also to compel withdrawal of
attorney Levant is denied). But see 28 USC 1654; Adams v. Ex.Rel
McCann, 317 US 269,279 (1942)(a court may not force unwanted
counsel on defendant), see also Idaho v. Garza, 203 L.ed
77(2019)(there is no right to counsel in a habeas proceedings).
The Court then adding further affront to 28 USC 1654. And 6th
Amendment supra, authorizing officious counsel to be master of
electing whatever issues to be pleaded in the 2255. See US v.
Williams, No.95-407-02 (E.D.PA), April 5, 2000 hearing transcript
(Exhibit-l)(id.Nt.27/201-202, the court: that's my final ruling.
I'm not going to change my mind. Defendant: Excuse me your honor.
The Court: You're going to talk to your lawyer. I don't want to
hear anything you have to say), (id.Nt.201, Mr. Levant: Your
Honor, just to inquiry with the court, shall I
what I'll ask
Mr. Williams to do. I beleive, is to file issues he wishes
the

3

Court: Yes, make a list. id. Nt.28/202, Mr.Levant: --forward me a
copy and I'll prepare them for litigation, although I won't file
anything further in “wrrtTngq—i-s—th at—wh at—the—e-our t—-is—as king—me^. —
The Court: whatever you feel is appropriate"). But see 28 USC 1654
(provides no right to hybrid representation) see Mckaskle v.
Wiggins, 465 US 168, 183 (1984)(same).
Third: The 1st and 6th Amendments was denied during 2255; by the
district court preventing movant from accessing the court directly
or personally pleading 2255 issues personally (in his own way).
See US v. Williams, No.95-407-02 (E.D.PA) April 5, 2000 Court
order (Exhibit-2) (id.2, defendant shall file proposed
supplemental issues with Levant and not with the court)(id.fn.1,
he will be permitted to present issues but only through counsel").
But see 28 USC 1654; see First Amendment (provides right to access
and personally petition the court), see also Rodriguez v. US 395
327(1969)(same), See Mckaskle v. Wiggins, same; See Lewis v.
Casey, 518 US 360, 367 (1995)(citing Ex Parte Hull 312 US 546
(1941), expressing a prisoners constutitional right of access to
the court and finding unconstitutional a regulation of requiring
submitting prisoners habeas corpus motion to approval of prison
authority before it could passed on to the court).
Fourth: the district court refused and failed to adjudicate
meritorious habeas issues that movant timely filed / preserved viz
2255. This debacle occurred notwithstanding the district court
promised the issues would be heard and acknowledged the original
2255 pro se issues were preserved. See US v. Williams no.95-40702 (E.D.PA), April 5, 2000 hearing transcript (Exhibit-1)
(id.Nt.2, the court by way of history this habeas matter began
with a letter we received from the defendant dated March 17, 1999,
we deemed to be a application for Habeas Corpus relief), see
(id.nt.16/190, Defendant: I've got issues that I've been compiling
for years. The Court: Yes, I did read those motions and I'm aware
of all the issues you raised and they are filed of record and you
are preserved on those issues. You've raised them in writing and I
think I understand). Consequently, the district court foreclosed

4

adjudicating these original habeas issues instead only conducted a
inadequate analysis, limited to the foisted 2255 issues of forced
unwanted additional ineffective appointed counsel.See US v.
Williams 166 Fs 2d at 289 (E .D.PA)(addressing the nominal 2255
issues of unwanted appointed counsel only). But see Slack v.
McDaniel, 529 us 473, 485-86(2000)("habeas petition dismissed
without adjudication of the merits is not second or successive).
See Goldman v. Winn, 565 FS2d 200,208-211(D.Mass.2008)(granting
Habeas 2241 relief for failure to earlier adjudicate colorable
claims and lost of appeal due to no fault of petitioner). See
Marshall v. Hendricks, 307 F3d 36,81-82 (3d 2002)(recognizing that
in some instances in which a full, fair opportunity to litigate
was denied to habeas petitioner. Where a structural defect in the
system prevented defendants claims from being heard), [fn.2, see
Burger v. Kemp, 483 us 776,787 (I987)(a court has duty to search
for constitutional error with painstaking care and is never more
exacting than it is in a capital case). It is practical to
conclude that a 57 year federal sentence on a 27 year old young
man is relatively a death sentence).
The 2255 stage is one wrongly convicted last opportunity for
redress. The denial or deprivation of it's fair and full access by
impairing the right to self-representation and 28 USC 1654 is
extraordinarily rare, see Mayle v. Felix, 545 US 644, 675
(2005)(93% habeas applicants are pro se). It is the sort of
extreme, abusive violation ranked amongst the finite class of
structural errors. When left uncorrected in a proceeding has been
routinely found to cause miscarriage's of justice. The Supreme
court and Third circuit have announced that such unlikely
circumstances warrant the unconditional grant of habeas relief.
See Haskell v.SCI Greene supra, see Schriro v. Landrigan, 550 us
465, 482 (2007)(citing Johnson v. Zerbst, 304 US 458 (1938),
habeas is an available remedy to one who has, without having
effectively waived his constitution right to counsel, has been
convicted, sentenced and whom expiration of time has rendered
relief by an application for new trial or by appeal unavailable).

5

DISCUSSION
On about August 1,1995 movant was arrested by FBI in Baltimore,
Md; August 9, 1995 a indictment was issued by a Philadephia, PA
federal grand jury on one count of arm bank robbery 28 USC 2113(d)
and one count of use of a firearm in relation and during the
commission of a violent or drug trafficking crime 28 USC 924(c).
[fn.3, other related offenses followed five superseding
indictments)]. Movant has maintained his innocence and following
October 30, 1996 a jury found movant guilty on all counts.
The trial defense was a shame, surreal, and a mix match with
appointed counsel (Jeffrey Lindy) unwilling to subject the
prosecution to any serious adversarial testing. The direct appeal
was an extension, invariably, just as ineffective and omitted the
most substantive pertinent claims. Movant would later uncover (a
breakthrough) during a unrelated Elizabeth, NJ (Union County) Jury
trial how Lindy purposefully underperformed, underrepresented
movant.
Specifically, in November 1998 during the aforementioned
Elizabeth, NJ trial, movant uncovered a relevant transcript from
the federal trial dated (October 28,1996). [fn.4, Phillip Leahy,
esq obtained the transcript in preparing arresting FBI agent Barry
for his defense appearance in Union, County trial. Barry was being
called to testify how upon arrest movant invoked his right to
silence and contact his lawyer]. Surprisingly and fortunately
attached with the Barry federal trial transcript were additional
pages of transcripts (Nt.1895-1901). The Barry transcript revealed
a secret side bar involving AUSA Crawley, trial judge Antwerpen
and Lindy. Prior to this movant had never been privy that the side
bar occurred let alone it's exigent significance. The sidebar
discussion began with the parties having already been convening at
the bench.
id.nt.1897 (The Court: I understand that the prosecution has some
information pertaining to the witness working in the hotel with

6

the jury. Crawley: Yes Your honor I heard last night but I known
prior but forget that prosecution witness Lisa Wynn works in the
hotel where the jury is staying. The Court: Let's just whisper.
Crawley: Last night I learned but I may have known previous but
Lisa Wynn' second job is a hostess in the Hotel where the jury is.
The case agent called me last night and I told him to have the
manager make sure she had no contact with the jury. He told me he
contacted the manager and the manager said where she was, he would
handle it...and that' where I left it...that the manager would
handle it. Lindy: your honor this could be prejudicial to Mr.
Williams if any of the jurors had contact or seen Ms. Williams. I
know the jury was in the Hotel sports bar maybe Tuesday night. The
Court: I don't think so the Marshalls have been fairly thorough.
Unidentified speaker: Yes, Your honor. The Court: I want her kept
out of there, we're close, we only have maybe a day or two. Lindy:
one more thing Your honor, last night Mr. Williams drafted a
number of questions and answers to pose to witnessess, literally
pages and pages of questions, a notebook full of questions to pose
to the witnesses. And some of the questions are pertinent. I have
noted them but I will not ask these question he wants and I
beleive it will be problem. The Court: Well ----I know your in a
difficult situation with this guy. The Court :ok let' bring in the
jury.)
A subterfuge only explains how movant had to first find out about
this secret sidebar, (prosecutorial/jury misconduct cover up)
inadvertently two years after it occurred. The actual concealment
of this (Remmer v. US 1954, Smith v. Phillips (1982) violations
from movant) underscores the disloyalties of appointed counsel,
prosecution and trial judge. The deliberate nondisclosure
misconduct of this extra judicial jury contact matter from movant
by the appointed counsel and prosecutor is strong indication that
they will commit perjury and engage in any strain of unethical
behavior to wrongly convict.[fn.5, noteworthy is Lindy's
conspicuous absence of this secret sidebar issue on direct
appeal]. Thereto, being suspect is the very need itself for
secrecy, whispering or no good cause for a urgent sidebar at all,
7

because there is no jury present in the courtroom. Which infers
the object of the sidebar was to conceal the odious prosecutorial
misconduct, it's highly prejudicial nature from the deTendant. bee
(id.Nt.1897, the court: "Let's just whisper"), see also
id.nt.1901, the court: ok now let's bring in the jury".) Again,
none of the parties attended or privied id ever apprised defendant
of this prosecutorial/jury misconduct developement during this
anonymous/sequestered jury trial, (emphasis added) [fn.5, please
note the jury in this case was purportedly specially sequestered
and lodged in a confidential hotel location. See April 7, 1996
court order granting prosecution motion for anonymous, sequestered
jury. This court order was obviously breached and in contempt by
prosecution, gleaned in the facts accepted at the sidebar alone.]
Their concealment deprived defendant of his right to be informed
of developments in the case. Esp a witness' extrinsic contact with
the jury, who then permitted to testify before that same jury and
the breach of the jury anonymity. This concern was settled in
Smith v. Phillips supra when the Supreme court reaffirming Remmer
v. US (1954), Brady v. Maryland held the defense had a
constitutional right to cross examine the witness under oath
regarding the witness specific contacts s/he had with the jury, id
455 US 209, 229. The question remains what exactly did (Wynn)
communicate to the jurors? the right to pose these questions,
yield these answers have been denied to defendant for 20 years for failure of adjudicating this single original habeas issue. See
US v. Williams no.95-407-02 (E.D.PA) April 5, 2000 hr.tr (Exhibit1) (id.nt. 2/176) supra. The structural defects (see intro) supra
blocked movants efforts for fair review. This is unconscionable
breakdown, miscarriage of justice especially when the court had
deemed [movant's issues] preserved and initiated these habeas
proceedings, id at NT.2/176, NT.16/140. [fn.7, also among the
original habeas issues was a meritorious Giglio v. US 405 US 155
(1972) violation claim. In March 1998, movant received a letter
from Rob johnson (unindicted coconspirator who testified for the
prosecution) expressing that he and coconspirator prosecution
witness Peterson falsely testified against movant and the case
8

agent Quirk allowed them to meet pre-trial and prepare their
canard. Johnson confessed that he, Peterson and French (all key
prosecution witnesses) was promised by agent Quirk that they would'
not be prosecuted (immunity) from various drug crimes, gun
offenses and state murders for false testimony. This
letter/confession supplied among original habeas issues has since
been corroborated by newspaper reports and state prosecutor'
(Maria Dantos) . See eg 7/20/01, Pg. b4 (Peterson, French were
offered immunity from White murder by FBI for testimony against
Williams), see Dantos, Lehigh County, court (PCRA) 3/24/11,Nt.15758 (Q. And did you give French, Peterson immunity from prosecution
in the White murder case? Dantos: They were not prosecuted), see
also 8/19/11, Nt.46, Q. And would this have been in writing?
Dantos: No)., see (id.nt.236, Q. was anything in writing about
this? Dantos: No). This admission is proof of first class Giglio
violation. See US v. Risha, 445 F3d 298, 299 (3d 2006) (finding
Giglio violation when prosecution failed to disclose federal trial
witnesses favorable treatment on state charges for testimony).
Then see Dantos 8/19/11,Nt.45 (Q. You said you felt obligated to
honor a "understanding" they had with federal prosecutors that
they would not get charged in the White murder? Dantos: I did-I
did--if I had my way they would have been charged). In Giglio,
this Court ruled that failure to disclose a immunity or evidence
of any "understanding" to forego future prosecution of witness for
testimony violated due process.) [fn.8, emphasis noted that during
trial, federal prosecutors/witnesses testified and argued
vehemently that none promised or received immunity.] This Giglio
violation inter alia misconduct was raised in movant's original
habeas writing (letter/motion) and foiled by the court with forced
counsel. See April 5, 2000 hr.tr.(Exhibit-1)(id.nt.4-5/178,
Levant: Your Honor I reviewed large portions of Mr.Williams
writings), (id. and formulated what I believe were issues I
researched many avenues Mr. Williams wished me to and I just came
to the conclusion that they were not appropriate for filing),
(id.nt.4, there was some differences of opinion as to what claims
were meritorious. Mr. Williams felt other things needed filed. I
9

did not and in the end I felt the decisions were counsels to
make); but see In Re Matter of Little, 404 US 553,555 (1972)( once
defendant elects to proceed Pro S'e i~t~rs—thre~d efendnTrts-rl~girt—toelect what claims to pursue or abandon), see also 28 USC 1654.
Other Circumventions of the 2255 remedy
Movant pro persona prepared a letter including the aforemention
inter alia original habeas issues to the court. See also US v.
Williams 166 FS2d at 289 (same)("this habeas matter began with a
letter the court received from the defendant, the court deemed to
be a application for habeas corpus relief pursuant to 28 USC
2255). The original 2255 motion contained motion to review the
pre-sentence reports, sentence hearing transcripts of the
cooperating prosecution witnesses. This pro se motion was granted.
The conditions of executing the motion required investigation
services and review of sensitive probation department files. To
manage this task the court appointed attorney Mike Refowich. As
anticipated Refowich reported back in correspondences to the
court, movant of finding highly exculpatory materials. Refowich
explained in correspondence (on docket) that he uncovered evidence
of Brady/Giglio violations in the PSR' supportive of the
prosecutorial misconduct habeas claims. Refowich requested in a
letter motion for extension of time to further investigate,
develop this further, [fn.8, the prosecution had never denied or
refuted these claims of Brady material located by Refowich in the
PSR's]. Then suddenly confounding and circumventing the
development of habeas Pro Se motion was something compelled
Refowich abrupt juxtaposition and motion to withdraw. Refowich
made this contrary action without confering with movant. Nor did
movant seek Refowich withdrawal. The district court just as
confusing and without hearing summarily granted the motion to
withdraw. See Refowich Docket filings, [fn.9, apparent in district
courts withdrawal of Refowich (without hearing) is contrasts with
district court's prior practices in resisting and refusing movants
requests to withdraw (Levant). See April 5, 2000 hr.tr (exhibit10

l)(id,nt 16/190-191), (id.NT. 27/201, supra), see also April 5,
2000 court order (Exhibit-2)(id.4-5, denying defendant repeat
motions to compel withdraw! of Levant)”]. The district court
without hearing installed Levant. The district court directed
Levant to [supersede] movants original 2255 habeas issues with a
new one. See April 5, 2000 hr.tr (Exhibit-1)(id.nt.2/176, the
court: June 21, 1999 I granted Mr. Refowich motion to withdraw and
I appointed Robert Levant to supplement or [supersede] the
defendants initial habeas motion), see also US v. Williams 166
fs2d at 289 (same). See April 5, 2000 hr.tr.(Ex.1)(id.nt 1112/185-86, Defendant: I put together issues to raise in my 2255
and sent it to Refowich. Then out of no where he just withdrawed.
I was hit by ambush with that--). Levant was a poseur to movant,
instead of supplementing movants initial (original) habeas issues.
Levant supplanted movants initial 2255 motion replacing and
excluding all the original meritorious Pro Se issues with new
specious ones. See April 5, 2000 hr.tr (Ex.l),( id.nt.2/176,nt.1617/190-91) supra.
Levant' new ersatz did not even improve upon or include Refowich'
motions to continue or claim uncovering Brady violations in the
PSR's. See Refowich letters dated May 1999-June 21, 1999; see also
Docket of Refowich motion for continuance dated approximately June
1999. [fn.9, Refowich' abrupt motion to withdraw. Movant believes
it was done to circumvent pro se original 2255 issues from being
heard]. It was the superseded Levant deviation that movant
disagreed and forced upon, the district court limited it's 2255
analysis, (which is bases to strike entire judgement/analysis) See
US v. Williams, 166 FS2d at 289-299. But see April 5, 2000
hr.tr.(Ex.l) (id.nt.18-19/192-93, Crawley: Your Honor, I received
type 2255 and agree with Mr.Levant that it appears to be great
work. It would be ashame to waste, it does seem to raise a number
of issues, despite the fact the Mr. Williams disagrees with them),
see April 5, 2000 hr,tr.(Ex.1)( id.nt.28/202, the court: im not
permitting you to file your own habeas corpus motion we going to
proceed on the (Levant) one we have ).
Plainly, these subversive actions of the district court complicit
11

with the prosecution in forcing counsel to elect which claims on
2255 to pursue or abandon-was rank structual error. See Lewis v.
Casey, 518 US 361, J57 (1995~) ciTlng Ex Parte HuTl^ 3T2~U'S at 5~z+9—
supra; see In Re Matter of Little supra, see McCoy v. Louisian
(2018), see also Idaho v. Garza (2019), Rodriguez v. US (1969)
supra.
Put simply, the district court' action in denying movant the
statutory (28 use 1654) and Constitution (Sixth Amendment) rights
to prepare, plead his own 2255 habeas corpus motion was a
capricious structural error. In this case the structural defect in
the 2255 proceedings caused meritorious 2255 issues timely raised,
presereved to be left unadjudicated. See April 5, 2000 hr.tr
(ex.l) (id.16/190 ) supra. Thus, this structural defect rendered
the resulting analysis in this 2255 proceeding inadequate,
ineffective and unreasonable. It should be stricken. See US v.
Williams 166 Fs2d 289-299. But see Slack v. Mcdaniel, 529 US 473,
483-86(2000)(Habeas petitioner dismissed without adjudication of
the merits is not a second or successive), see Schriro v.
Landrigan, 550 US 465, 474 (2007)(the courts analysis unreasonable
when it did not conduct any material analysis), see Marshall v.
Hendricks, 307 F3d 36,81-82 (3d 2002)(recognizing that there maybe
instances in which a full, fairness opportunity to litigate was
denied to habeas petitioner where a structural defect in the
system prevented defendants claims from being heard).
EXTRAORDINARY CIRCUMSTANCES STOOD IN MOVANT WAY
Anyone of the prevalent constitutional violations delineated above
(see introduction) would suffice as a instance of extrordinary
circumstances compelling resort to original writ (28 use 2241).
See Haskell v. Greene SCI, 866 f3d at 148-149 (recognizing
structural error like denying the right to self-representation as
warranting habeas relief).
Movant has been banished from obtaining 2255 remedy for 20 years.
Since March 17, 1999 movant has properly, diligently sought 2255
relief of a wrongful conviction and was unconscionably blocked.
See April 5, 2000 hr.tr.(Ex.1)(id."Just by way of history. This
12

matter is before the court under habeas corpus proceedings. By
letter of defendants to by an application for habeas relief),(id.
"I appointed Levant [to supersede the de'fenda'n't's—habea-s—mot-i-on---with a new motion]"). But See In Re Matter of Little, supra.
ISSUE
Movant was denied the right to self-representation during his
initial 2255. Which has left movant banished from justice, left
meritorious habeas issues unvindicated for over 20 years. Movant
for this long has tolled/doggedly pursued myriad pleadings,
letters and Pro Se motions in district court and Third circuit to.
remedy and intervene in this travesty. Most recently, these lower
courts movants correct 2241 motion into a incorrect 2254 (state
conviction remedy), dismissing it. See US v. Williams no: 19-3688
(E.D.PA). This ruling is grievous wrong. As movants 2241 meets/met
all criteria, exceptions for purposes of 2241 relief. The
unfairness of the opinion is the iniquity and effect of the
structural defect (error) on the judicial process. See Brecht v.
Abrahamson, 507 US 619, 629-30 (1993) ("structural errors infect
the entire judicial process" and accordingly require relief).
Coupled by the structural errors having been left uncorrected in
these proceedings for 20 years. Every judicial decision has been
defective and absurdity based upon overlooked structural errors
during intitial April 5, 2000 habeas proceedings (Ex.1)(id.nt.
2/176, nt.16/190, nt. 27-28/201-202). See August 13, 2001 court
order (Ex.3) [ fn.9, each order of District Court following
structural error during April 5, 2000 hr.tr. (ex.l) has been
contradictory and twisted. Consider, here the court base his
decision to deny movant habeas 2255 upon false and misstatesments.
id. "60 days after April 2000 murder trial no later than August 1,
2000"). But these insertions in the order is fraudulent
misrepresentation or contrary. Compare April 5, 2000 hr,tr (Ex.l)
(id.nt. 27-31/201-204 (no August 1, 2001 deadline
imposed)(irrespective august 1, 2000 deadline would be inflexible,
unfair); then compare August 13, 2001 o ;<1 • .• ' ■ "After his April

2000 murder trial"), but see Lehigh County murder trial transcript
(Ex.4) concluded dated August 1, 2001 not April 1, 2000. See also
Morning call news article, 7720/'01-; Pgc—B4—(-tvy-hrews—e-ov-e-ra-g-e—o.f__
the murder trial)]. Thereafter, see each of movants forays in
attempting to redress his wrongful conviction, erroneously,
summarily restyled and dismissed as successive motions. Albeit,
movant' habeas issues (meritorious / preserved) remained
unadjudicated. See April 5, 2000 hr.tr.(id. nf., 10/190), see also
Slack v. Mcdaniel, supra. But see US v. Williams, No.01-4125
(3d.cir. 8/29/02)("defendant purported claims would not provide
basis for authorizing second successive).
Over the years these decision? have corroded, flouted law and
fact. See eg, US v. Williams No.08-34.38, the 3rd Circuit May 1,
2009 decision denying 60(b) or any other attempt at equitable
remedy reopen initial 2255 based on known misstatements in
district courts orders. See (id. "fn_. 1, we agree with Williams
that one possible [out of context] reading of the April 5, 2000
hearing transcript (Ex.l) is that he was given until after the
murder trial to supplant to the 2255. [Regardless], it was well
within the district court's power to [insert] a more definite
deadline in written order"), [fn.10, emphasis noted the 3rd cir.
opinion is not supported by record or legal citation].
Unfortunately, the court underestimated the significance of the
fact that petitioner was effectively shut out of federal court without any adjudication of the merits of his claims, because of a
procedural ruling that was later shown to be flatly wrong, cf.
Gonzalez v. Crasby, 545 US 524, 541 (2006).
Succintly, repeat opinions of the Third Circuit (because of
structural error uncorrected) has been contrary and unnecessarily
wrong. It is inexcusable and impossible to take out of context the
district court ruling. The district court in it' oral
pronouncement (promise) during the hearing is explicit, reiterated
and.without ambiguity. The consistent only condition imposed April
5, 2000 is unequivocally clear (id. nt.28/202 "defendant: "so if I

understand this has been postponed until my murder trial is over?
Court: [correct]), (id.nt. 30/204, "defendant: I cannot
concentrate on rai ding no issues right now, so i won hr be do-img
anyth.'.ng in that (2255) area [until the murder trial is over].
Court: [you don't have to submit them until the murder trial is
over] that's fair ok. Defendant: All right, now so I've got rome
time, [when the murder trial is over], how much time?), (id. nt
31/205, Why don't you get it to him within 60 days after the
murder trial is over).
The record clearly corroborates, supports the defendant request
for relief that he was following the unambiguous instructions of
the district court word, accepting to be truth, accurate and
binding. See April 5, 2000 hr.tr, (ex.l)(id. nt 28-31/202-205)
supra. See US v. Martinez - Rios, 143 F3d 662, 675-76 (2d 1998)
(obviously either the order or the transcript is inaccurate and
petitioners claim hinges on which document is correct), [fn.10,
the prosecution conceding that the judges oral statement takes
precedent over the written order." Cf. US v. Johnson 2020 3rd
circuit (citing US v. Faulks, 201 F3d 208, 211 (3d.2000), see also
Best evidence (18 (c))(term is usually applied to writing,
recordings if the original is available it must be offered rather
than a copy or rendition)]. See Hansberry v. Lee, 318 US 32, 42
(1996) (fairness requires and protects defendant from written
notices from District Court that are inconsistent or confusing),
see also Schriro v. Summerlin, 542 US 346,351 (2004) (defendants
have right to fundamental fairness and accuracy in criminal
proceedings).
LEGAL ANALYSIS
This court's most recent opining on this issue wrote: "the public
legitimacy of our justice system relies on procedures that are
neutral, accurate, consistent, trustworthy and fair and that
provide opportunities for error correcetion." Cf. Rosales Mireles v. US, 138 S.Ct. 1897, 1908 (2018), see also Wiborg v. US,

IS

103 US 632, 658 (1896) ("if a plain error was committed in a
matter so absolutely vital to defendants liberty. The reviewing
court is at liberty to correct it").
~
----------- ------The applicable legal aval r.cnstitutional law is a bright line in
this case. See 28 USC 1654, 28 use 2241, 1st and 6th amendments
applies. When there is violation or denied Habeas remedy is
available. The Right of a party to a legal»action to represent
his, own cause has long been recognized in the United States and
even predates the constitutions ratifeation. See Sec.
of the
Judiciary Act of 1789 and signed by President Washington one day
before the Sixth Amendment was provided that in all courts of the
U.S. the parties may plead, manage their own defense personally or
with assistance of counsel. Faretta v. California, 422 US at 813.
See Schriro v. Landrigan, 550 US 465, 482 (2007), citing Johnson
v. Zerbst, 304 US 458 (1938), "Habeas Corpus remedy is available
U> one who has withou having effectively waived his constitution
right to counsel has been convicted, sentenced and to whom
expiration of time has rendered relief by an a application for new
trial by or appeal unavailable." See California v. Roy, 519 US 2
(J.996)(federal habeas corpus relief warranted on direct or habeas
stage for structural error), see Brecht v. Abrahamson, 507 US 619
at fn.9 (1993) supra, see also Haskell v. Greene SCI, 866 F3d 139,
148-149 (3d 2017)(recognizing Brecht typ? structural
constitutional error like denying the right to counsel as
warranting habeas relief).
Here there are a combination of constitutional and legal errors
that render 2241 available.
Ordinarily when a applicant applies for habeas relief under a 2241
- there is two strict approaches to qualifying:
1) there is a showing that the 2255 is inadequate and
ineffective;
2) a miscarriage of justice would result.

I (o

In re Davenport, 147 F3d 605, 609 (7th cir. 1998), 2241 serves the
.The____
essential funcrtrxn of “herbBcrs—e-o-rpn-s—when—2-2^55—wa^—u-osble.

2241 provides a prisoner a reasonable opportunity to obtain a
reliable judicial determination of the fundamental legality of his
conviction and sentence.
A petitioner who has been unjustly incarcerated after suffering a
miscarriage of justice (actual innocence) is entitled to the
unconditional writ, see Wainwright v. Sykes, 433 US 72, 91 (1977).
Then there is a constitutional mandate to habeas relief if the
defendant claimed a "structural error", see Douglas v. California,
372 US 353 (1963) (finding habeas relief entitled based on serious
constitutional and statutory errors such as the denial of the
right to counsel); see also McCloskey v. Zant, 499 US 467, 494495 explaining federal courts retain the authority to issue the
writ of habeas corpus in a narrow class of cases, when the
petitioner establishes cause and prejudice. The narrow class of
cases defining cause and prejudicial is structural or prejudicial
errors, see Goldman v. Winn, 565 FS 2d. 200, 215 (D.Mass
2008)(constitution mandated collateral review of a structural
error claim)
As discussed earlier movant attempted to bring his claims of
wrongful conviction on 2255 but was obstructed by structural
error. See introduction, discussion supra.
When 2241 is available it operates to provide relief in the same
circumstances as 2255 if it were available. See Hill v. US 368 US
424, 427 (1962) CF. Winn 565 FS 2d at 213. [fn.ll, for example
movants previously unadjudicated Brady, Giglio violation claims
would suffice for new trial relief under 2255. But those same
claims later raised in a 2244 (b) would be precluded, because both
Brady, Giglio claims require materiality analysis. A standard of
review performed under 2255. See Kyles v. Whitley (1995), see also
Strickler v. Greene.

n

CONCLUSION
Due to
erf—s-ta-t-ut ory —and—eons-t-i-tu-tionaJ—r-igh.t-S
relative to 28 USC 1654 such denial, constituting extraordinary
circumstances and structural error entitling movant to relief. See
Vonville v. Kevester, 2018 US Dist. Lexis 189812 (3d 2018)
(structural errors warrants the unconditional grant or habeas
relief), See Brecht v. Abrahamson supra, see Haskell v. Greene
supra, see US v. Peppers, supra.
RELIEF
Movant seeks immediate release by the unconditional grant of
habeas corpus, or alternative a new trial - to correct a
miscarriage of justice.
In Goldman v. Winn Cv.no.04-cv-12712 (D.Mass 2008), document 63
filed 3/13/08, pg.3 of 23. The aggrieved was granted habeas relief
viz 28 USC 2241. With regards to the vexing question of relief for
the faultless loss of his right to appellate review of his
conviction, [fn.ll, in movant case is even far worse injustice.
Here the prior 2255 judgment should be stricken in itself. To
begin it was forced, foisted upon movant by a unwanted counsel
(see discussion). the fake 2255 of record (US v. Williams 166 FS
2d 284 (E.D.P.A) is void abnitio because it is forgery being
neither verified or contained movant's signature as required by
federal habeas rule 2 and 28 USC 2242. It should not be treated to
carry legitimacy, see April 5, 2000 hr.tr. (ex.l)(id.nt.18-19)
supra]
Respectfull

r

18

Additional material
from this filing is
available in the
Clerk's Office.

